DOE F 1325.8
(08-93)
United States Government                                                        Department


Memorandum
         DATE:   September 20, 2006                          Audit Report Number: OAS-L-06-20
    REPLY TO
     ATTN OF:    IG-34 (A06TG036)

    SUBJECT:     Special Report on "The Department's Security over Personally Identifiable
                 Information"
           TO:   Chief Financial Officer, CF-1
                 Chief Human Capital Officer, HR-1
                 Chief Information Officer, IM-1

                 INTRODUCTION AND OBJECTIVE                            *

                 The Department of Energy (Department) maintains'numerous information systems
                 that contain personally identifiable information (PI). In response to recent
                 security incidents involving the loss or compromise of sensitive personal
                 information by Federal agencies, the Office of Management and Budget (OMB)
                 issued a memorandum on June 23, 2006, recommending that agencies take action
                 to strengthen controls over the protection of PII within 45 days. The actions
                 focused on ensuring that PII was adequately protected when transported or
                 remotely accessed. The guidance also recommended that all computer-readable
                 extracts from databases containing sensitive data be tracked and promptly erased.
                 when no longer needed.

                 In response to a request from OMB, the Office of Inspector General (OIG), in
                 coordination with the President's Council on Integrity and Efficiency (PCIE),
                 performed a review of the Department's controls over the protection of PI. The
                 review was based on a PCIE developed standardized guide designed to test the
                 implementation of OMB guidance and related National Institute of Standards and
                 Technology (NIST) requirements. The results of our limited scope review,
                 presented below and in the attached reporting template, will be combined with
                 those of other Agency Inspectors General and used by the PCIE to prepare a report
                 on the status of PII protections within the executive branch.

                 CONCLUSION AND OBSERVATIONS

                 Although the Department has made progress and has indicated that it plans to fully
                 implement needed controls, our review found that :ecently developed PI policies
                 were missing certain key components and that implementation was, so far,
                 incomplete.
UU/21/UU   UB:1Z    rAAd   3U1   9UJ   4000




                                                  Departmental Efforts
                                                                                    The Office of the
                   The Department has taken several positive steps to protect PII.
                                                                                          (DOE CIO
                   Chief Information Officer (OCIO) issued Department-level guidance
                   Guidance CS-38, Protectionof Personally IdentifiableInformation, on July 20,
                                                                                all Federal and
                   2006), establishing requirements for the protection of PI in
                                                                             controlled by each of the
                   contractor operated information systems. Organizations
                   Department's Under Secretaries have also issued separate and complementary
                                                                                   are implemented.
                   guidance designed to ensure that required protective: measures               actions
                   Work is underway to deploy these recently developed controls and include
                   such as utilizing two-factor authentication for remote access and installing
                   encryption capabilities on laptop computers.

                   Various program elements have also begun performing internal reviews to
                   determine whether controls had been implemented a;d identify needed corrective
                   actions. For instance, a review conducted by the Office of the Chief Financial
                   Officer identified a number of activities that have b-dn or will be taken to meet
                   security requirements, including the installation of Incryption software on all
                                                                                              all systems
                   laptops and the development of a plan of action and milestones to bring
                   into compliance. In addition, the Office of Management     completed   a review   of
                                                                                         safeguards to
                   policies and processes to ensure that the Department had adequate
                                                                                     access to, PII.
                   prevent the intentional or negligent misuse of, or unauthorized
                   Although this management review did not include formal recommendations, it did
                   identify certain areas that needed improvement.

                                                Policies and Implementation

                    Even though the Department has developed policies for protecting PI that is
                    transported or accessed remotely, this guidance was not complete. While each of
                    the policies we reviewed prescribed certain controls for transporting PII, they did
                    not always meet requirements established by NIST. For instance, several of the
                    policies reviewed required that transported PI be encrypted; however, rules for
                    determining whether the information should be transported at all were not defined.
                    Other implementing instructions did not address issues such as controls necessary
                    for ensuring that PII maintained on personal computers used for telecommuting is
                     not exposed to compromise. Policies also did not always explicitly describe rules
                     or prohibitions related to the remote download and!or storage of PII.

                    Based on limited testing, we also determined that the Department had not yet
                    implemented all the protective measures recommended by OMB and/or required
                    by NIST. For example, NIST required risk assessments had not always been
                    updated to ensure that all PI, whose exposure could result in a moderate or high
                    impact, had been explicitly identified. Specifically, the results of an internal
                    review from one program disclosed that certification and accreditation documents,
                    including risk assessments, had not been modified to address PII issues. In
                    addition, the programs reviewed had not implemented logging bf computer-
                    readable data extracts from systems containing PH. Various officials told us that


                                                       2
while this step was recommended by OMB, they did not believe that it was
                                                                          policies
practical. Furthermore, the field sites reviewed had either not developed
addressing all OMB recommendations or had not yet completed implementation of
established policies.

ONGOING ACTIVITIES

Although we have completed the tests specified by the PCIE (see attachment 2),
our audit to evaluate the adequacy of the Department's protection of PII continues.
During the coming months, we plan to visit additional field sites to determine
whether facility contractors have implemented needed protective measures. At the
completion of audit field work, we will issue a follow-on report which will contain
formal audit recommendations, as appropriate.

We appreciate the cooperation of you and your staff during the conduct of this
review.



                                             IIC
                                      Rickey R. Hass
                                      Assistant Inspector General
                                         for Financial, Technology, and Corporate Audits
                                      Office of Inspector General

Attachments (2)

cc:    Chief of Staff
       Director, Policy and Internal Controls Management, NA-66
       Team Leader, Audit Liaison, CF-1.2
       Audit Liaison, IM-10
       Audit Liaison, HR-1
       Audit Liaison, EM-33
       Audit Liaison, FE-3
       Audit Liaison, SC-32.1




                                  3
                                                                    Attachment 1

SCOPE AND METHODOLOGY
                                                            at Department
This review was performed between June and September 2006
                                                 MD;   the Oak Ridge Office,
Headquarters in Washington, DC and Germantown,
                                                                        Ridge,
Oak Ridge National Laboratory, and Y-12 National Security Complex, Oak
                                                               PA and
TN; and the National Energy Technology Laboratory, Pittsburgh,
Morgantown, WV.

To satisfy PCIE review requirements, we:

    *   Reviewed Federal regulations and Departmental directives and guidance
        pertaining to personally identifiable. information;

    *   Reviewed program level policies relevant to protecting personally
        identifiable information;

    * Held discussions with program officials froa Department Headquarters
      and field sites reviewed, including representatives from the Offices of the
      Chief Information Officer, Chief Financial Officer, Environmental
      Management, Fossil Energy, Management, and Science, as well as the
      National Nuclear Security Administration; and,

    .   Analyzed information provided by the organizations reviewed to determine
        compliance with OMB Memorandum M-06-16, Protectionof Sensitive
        Agency Information, as well as compliance with the President's Council for
        Integrity and Efficiency guidance.
                                                                                                                                                         Attachment 2

                         APPENDIX I: IG DATA COLLECTION INSTRUMENT - DEPARTMENT OF ENERGY

This data collection instrument (DCI) was developed by the FAEC IT Committee of the PCIE/ECIE to assist IGs in determining their agency's
                                                                                                                                  security checklist
compliance with OMB Memorandum M-06-16. The data collection instrument contains three parts. The first part is based on.a
               NIST  (see  Section 1 below). Questions  in the DCI are designed to assess Agency   requirements in the memorandum,     which are
developed  by
linked to NIST SP 800-53 and 800-53A. Each IGcan use the associated checklist and the relevant validation techniques        for their own unique
                                                                               M-06-16.  Section 3 should document   your overall conclusion  as well
operating environment Section 2 is the additional actions required by OMB
as detailed information regarding the   type of work completed  and the scope of work performed.

For each overall Step and Action Item, please respond yes, no, partial, or not applicable. For no, partial, and not applicable responses, please
                                                                                                                                         to provide an
provide additional Information in the comments sections. After the yes, no, partial, or not applicable response, IG's have the option
overall response using the six control levels as defined below for the overall Step. Each  condition  for the lower level must be met  to achieve a
                                                                                                   'Implemented',     the Agency must   also have
higher level of compliance and effectiveness. For example, for the control level to be defined as
                                                                                                                              provided  to the Action
policies and procedures in place. The determination of the control level for each step should be based on the responses
Items included in that step.


Controls Not Yet In Place- The answer would be-Controls Not Yet in Place' ifthe Agency does not yet have documented policy for protecting Pl.
Policy - The answer would be "Policy" ifcontrols have b.en documented in Agency policy.
Procedures - The answer would be "Procedures' Ifcontrols have been documented inAgency procedures.
Implemented - The answer would be "Implemented' ifthe implementation of controls has been verified by examining procedures and related
documentation and interviewing personnel to determine that procedures are Implemented.
                                                                                                                                      policies
Monitor &Tested - The answer would be "Monitor and Tested' if documents have been examined &Interviews conducted to verify that
and procedures for the question are implemented and operating as intended.
                                                                                                                             and improvements
Integrated - The answer would be "Integrated" if policies, procedures, implementation, and testing are continually monitored
are made as a normal part of agency business processes.




 Section One

                                               Security Controls and Assessment Procedures




  Action Item 1.1: Has the Agency verfied Information categorizationto ensure identificationof
  personal identifiable information requiringprotection when accessed remotely or physically
  removed?

  Action Item 1.2. Has the Agency verified existing risk assessments?
                                                                                            A-1
                                                                                                                                                         Attachment 2
                          APPENDIX 1: IG DATA COLLECTION INSTRUMENT - DEPARTMENT OF ENERGY

Comments: Not all Departmentorganizaionshad insured categorizationofsystems contaig PI In accordance with FPS 199 or updaed relevant risk
                                                                                                                                          assessments.




                                                                            I
                                         exlsng organiationalpolicy that addresses
Action Item 2.1: Has the Agency idAentified                                        the
information protection needs associatedwith personally identifiableinformation
                                                                   ttat        isaccessed
remotely or physically removed?

Action Item 2.2: Does the existingAgency organizationalpolicy address the Information
protection needs associatedwith personallyidentifiable informationthat Isaccessedremotely or
physicallyremoved?

          I. ForPersonallyIdentifiable Informationphysically removed:
             a Does the policy explicitly Identify the rules for determining whetherphysical
                removal is allowed?
             b. Forpersonally identifiable Informationthat can be removed, does the policy
                require that Informationbe encrypted and that appropriateprocedures,
               training,and accountabilitymeasures are in place to ensure that remote use
               of this encrypted Information does not resultin bypassing the protection
               providedby the encryption?

          2. For PersonallyIdentifiable Information accessedremotely:
             a. Does the policy explicitly identify the rules for determining whether remote
                access is allowed?

             b. When remote access is allowed, does the policy require that this access be
                accomplished via a virtualprivate network (VPN) connection established
                using agency-Issued authenticationcertificate(s)orhardware tokens?

              c. When remote access is allowed, does the policy identify the rules for
                 determining whether download and remote storage of the information is
                 allowed? (For example, the policy could permit remote access to a database,
                 but prohibitdownloading and local storage of that database.

  Action Item 2.3: Has the organizationalpolicy been revised or developed as needed, including
  steps 3 and4?
                                                                                                                              over
  Comments: Not all Department organizationshad establishedand/orupdatedpolicy regardingprotectionof PII, includingsafeguards
  transportand remote access in accordancewith OMB  and NIST requirements.




                                                                                                A-2
                                                                                                                                               Attachment 2
                         APPENDIX 1: IG DATA COLLECTION INSTRUMENT - DEPARTMENT OF ENERGY




Action Item 3.1: In the Instance wherepersonallyidentifiable information is transportedto a
remote site, have the NIST Special Publication800-53 security controls ensuring that information
is transportedonly in encrypted form been implemented?


      SEvaluation could include an assessment o tools used to transpor P1foruse of encryption.

Action Item 3.2: In the instance where Phl is being stored at a remote site, have the NIST SP 800-
53 securiiy cotnruis estiuingy that inf.*..-., is      d sy in -     pte f.     ke
implemented?
       * Evaluation could include a review of remote site faciliies and operations.
                                                                                                                                        when
Comments: We found thatnot all of the field sites reviewed had ensured that personally Identifiable Information was adequatelyprotected
being transportedor stored offsite.




                                                                                           A-3
                                                                                                                                                     Attachment 2

                          APPENDIX I: IG DATA COLLECTION INSTRUMENT - DEPARTMENT OF ENERGY


          If personally Identifiable information is to be transported and/or stored offsite
                      follow Action Item 4.3, otherwise follow Action Item 4.4




    Action Item 4.1: Have NIST Special Publication800-53security controls requiringauthenticated
    virtualprivate network (VPN) connection been implemented by the Agency?


           ' Evaluation could include a review of the configuration of VPN application(s).

    Action Item 4.2- Have the NIST Special Publication800-53 security controlsenfordng allowed
    downloading of personally identifiableinformationbeen enforced by the Agency?


             *Evaluation could Include a review of controls for downloadingPII.

          If remote storage of personally identifiable Information is to be permitted follow
.                         Action Item 4.3, otherwise follow Action iem 4.4.


    SAction Item 4.3: Have the NIST Special Publication800-53 securitycontrols enforcing encrypted
    remote storage of personally Identifiableinformation been implemented by the Aency?


    Action Item 4.4: Has the Agency enforcedNIST Special Publication800-53 security controls
    enforcing no remote storage of personallyidentifiable information?

    Comments: We found thatnot all Departmentelements reviewed had implemented adequatecontrols over remote access to personally
                                                                                                                                      downloads of
    identifiable information. Specifically, not all organizationshad implemented two-factorauthenticationfor remote access, monitored
     informationfrom databasescontainingpersonallyidentifiableinfonnatiorn orensured that remotely stored PII was encrypted.

     (The source for all the control steps above is NIST SP 800-53 and SP 800-53A assessment
     procedures.)




                                                                                             A-4
                                                                                                                        Attachment 2
                                                                                  ENERGY
                        APPENDIX 1: IG DATA COLLECTION INSTRUMENT - DEPARTMENT OF

Section Two




1.Has the Agency encrypted all data on mobile computers/devices which cany agency dataan
unless the data is determined to be non-sensitive, in writing by Agency Deputy Secretary or
individualhe/she may designatein writing?
                                                                                 the factors is
2. Does the Agency use remote access with two-factor authentication where one of
provided by a device separate from the computer gaining access?
                                                                                requiring
3. Does the Agency use a fime-out function for remote access and mobile devices
user re-authentication after 30 minutes nactivity?

4. Does the Aoency log all computer-readable data extracts from databases holding sensitive
information and verifies each extract including sensiffve data has been erased wnmin vudays u
its use Is still required?
                                                                                           or received the necessary.
 Comments: We found that not all Department elements had encrypted mobile devices
                                                                           had not been implemented   at all
 waivers at the time of our review. In addition, two-factor authentication                                    data
                                          of  the organizations reviewed  were logging all computer-readable
 organizations. We also found that none
 extracts from databasescontaining sensitive information.




                                                                                           A-5
                                                                                                                                                                                   Attachment 2

                        APPENDIX I: IG DATA COLLECT'ON INSTRUMENT - DEPARTMENT OF ENERGY

Section Three

To assist the PCIE/ECIE in evaluating the results provided by individual IGs and Increating the
government-wide response, please provide the following information:
Type of work completed (Ie., assessment, evaluation, review, Inspection, or audit).




Scope and methodology of work completed based on the PCIE/ECIE review guide Step 2
page 4.




                                                  -     Assessment Methodologies Used to complete the DCI Sections
                                                                   •-                                                             ark All That Apply

                                                                                                                              Section One                                Section
                                                                                                                                                                          Two
                                                                                                         Step 1                  Step 2                Step 3   Step 4

                                                                                                           F                        C
                                                                                                                                    C                    C
                                                                                                                                                         C        C
                                                                                                                                                                  C         C
                                                                                                                                                                            C
 Interviews (GIFIC)                                                                                        F
        --                                                                                                  e                       C                    G        G         F
                                                                                                                                                                            F
 Examinations (G/FIC)                                                                               _C                                                   G        G

 Tests (Independently verified - YIN)                                                                      N                        Y                    N        N         N



 Assessment Method Descriptions consistent with NIST SP 800-53A - Appendix D pages 34 - 36.
 G = Generallzed. F = Focused. C = Comprehensive. Y Yes. N = No.

                                                                                                      to placingyour results in the propercontet.
 OSM Naative: Pleaseaddress the coverage of your assesment, and includeany connentsyou deem pertinent




  Overall conclusion statement.




                                                                                         A-6
